<html>
<title> - TRAFFICKING IN PERSONS: PREPARING THE 2016 ANNUAL REPORT</title>
<body><pre>[Senate Hearing 114-751]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-751

                  TRAFFICKING IN PERSONS: PREPARING 
                         THE 2016 ANNUAL REPORT

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                              MAY 25, 2016
                               __________



       Printed for the use of the Committee on Foreign Relations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                   Available via the World Wide Web:
                         http://www.govinfo.gov



                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-828 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 































                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  
























                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     1

 Coppedge, Hon. Susan, Ambassador-at-Large, Office to Monitor and 
  Combat Trafficking in Persons, U.S. Department of State, 
  Washington, D.C................................................     3




                             (iii)        
 
                   TRAFFICKING IN PERSONS: PREPARING
                         THE 2016 ANNUAL REPORT

                              ----------                              


                        WEDNESDAY, MAY 25, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:35 p.m. in Room 
S-116, The Capitol, Hon. Bob Corker, chairman of the committee, 
presiding.
    Present: Senators Corker [presiding], Risch, Gardner, 
Perdue, Isakson, Cardin, Menendez, Shaheen, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. So thanks for coming.
    This is obviously a casual hearing, which we find to be the 
best in most cases. We are behind closed doors. That does not 
mean that we do not believe there ought to be congressional 
oversight. We do. But at the same time, I felt like maybe this 
setting would contribute towards this not being politicized in 
any way. We do not want to see that happen. But we obviously 
want to have oversight.
    Last year, we had some concerns about the whole process 
being politicized, and maybe there were competing interests 
around some of the decisions that were made about rankings. So 
this year--of course, we did not have a Susan Coppedge last 
year filling the role. And we appreciate the fact that she is 
here and she is working with each of you to try to come up with 
appropriate ratings.
    But we want to thank you for coming in. We just want to 
have an open discussion. And our sole goal is to ensure there 
is integrity in the process. One of the things that I think the 
committee is united on is this issue of ensuring that we deal 
with this in an appropriate way around the world.
    Senator Cardin has been tremendous on this issue for years. 
He has been around longer than I have and I know has been 
committed to this for a long, long time.
    So we thank you for coming. We look forward to an open 
discussion and your comments.
    With that, I will turn to the ranking member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Senator Corker.
    Let me first say we are all on the same side here. So our 
efforts is how can we be more effective in combating 
trafficking and how we can ensure that the tool of the 
Trafficking in Persons Report is maintained as the gold 
standard and is used effectively to further U.S. foreign policy 
and domestic issues.
    To Susan Coppedge, you have shown good judgment, as you 
just told me today, by moving to Maryland. That certainly 
helps. [Laughter.]
    The Chairman. It is not Georgia, but----Laughter.]
    Senator Cardin. Well, there is no one here from Georgia 
right now. So I think we are safe. [Laughter.]
    Senator Cardin. Maybe our Georgia representatives will be 
here soon, and they usually are very punctual in their 
attendance.
    But let me just underscore the point. Last year, it was 
very disappointing in two visible countries, with Malaysia and 
Cuba, but other countries. As I am looking at the report this 
year and specifics on countries, it is hard to understand how 
countries have not been downgraded where we see very little 
progress.
    I hope that this discussion--we can have a better 
understanding. We do not want to see political considerations 
on the ranking and tiers decisions on the Trafficking in 
Persons Report. We do not. We believe it must be the 
credibility of the report.
    We understand the process and the political realities of 
life. We serve in the United States Senate. So we understand 
that. But we want to protect the report from being politicized. 
And I hope that this meeting will help us get a better grip 
before decisions are made in the process so that we can work 
together to ensure the credibility of the trafficking report.
    The Chairman. Without objection, I would like to note that 
I called the meeting to order before we began.
    We have five witnesses. We have your nametags here. We met 
you. I am not going to go through that to save your time. There 
is no reason to be redundant. Do you want to just begin? And 
again, we thank you.
    I think what Ben said is true. We are on the same side, and 
my guess is there are some sitting around the table that much 
appreciate the fact that we are paying attention to this so 
that we continue to highlight this issue in an appropriate way. 
And just like with the State Department authorization, to us it 
was a joint effort. We are trying to do those things to help 
improve the Department. In this particular case, this is solely 
about making sure we are dealing with this in an appropriate 
way. And I think you would like for us to raise the issue to a 
level where that is being done.
    So, anyway, with that, Susan, do you want to begin?

 STATEMENT OF HON. SUSAN COPPEDGE, AMBASSADOR-AT-LARGE, OFFICE 
 TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. DEPARTMENT 
  OF STATE, WASHINGTON, D.C.; ACCOMPANIED BY HON. WILLIAM E. 
  TODD; HON. D. BRUCE WHARTON; SUSAN A. THORNTON; AND JOHN S. 
                            CREAMER

    Ambassador Coppedge. Okay. Thank you. Good afternoon, Mr. 
Chairman, Ranking Member Cardin, and members of the committee.
    I will note for the record that Senator Isakson did stop in 
to check on me, but he had to go and do something but did stop 
by to be sure everything was going well. So I appreciated that.
    I really thank you for the opportunity to be here again 
face to face on an issue that I know is something we all care 
very deeply about. The committee's leadership on preventing and 
ending human trafficking is well known throughout the 
Department, and it is a pleasure to be able to work with you 
and your staff.
    I have not had the opportunity to sit down with the 
committee since my confirmation hearing, and I am excited to 
update you on what I have been working on since assuming my 
role as Ambassador. It has been a whirlwind 6 months, and I 
have many updates to share. And I look forward to a productive 
discussion this afternoon.
    When I joined the Department, one of my first objectives as 
Ambassador was to travel to some of the high priority 
countries. I wanted to see firsthand how the TIP Report 
translates into anti-trafficking diplomacy on the ground, how 
our ambassadors successfully engage on the issue with the 
foreign governments, and how we can make improvements in the 
future.
    In the first few months on the job, I had the opportunity 
to travel to Mexico, South Africa, Botswana, Cuba, and most 
recently to India. I am happy to provide greater detail on 
those trips later in the briefing, but I will share one big 
takeaway.
    We have human trafficking experts throughout the State 
Department at each embassy in each country where we serve. I 
was truly impressed to see how knowledgeable our political 
officers are, our ambassadors, and our chiefs of mission at 
post. In each country I visited, they knew the TIP portfolio. 
They knew the prosecution, protection, and prevention efforts 
that were happening on the ground. They knew the successes, and 
they also knew the areas where improvement was needed. They 
know and have developed relationships with individuals in the 
government, in civil society, and with NGOs who are working on 
the issue. Their efforts at fighting trafficking in the 
countries where they are posted is a year-round diplomatic 
effort.
    It is also a whole-of-Department effort, which is why I am 
really pleased to be here today with colleagues from our 
regional bureaus: from EAP, our PDAS Susan Thornton; from 
Africa, our PDAS Bruce Wharton; from SCA, our PDAS Bill Todd; 
and from WHA, our DAS John Creamer. You can tell I am also 
learning the State Department alphabet and their titles trying 
to get them down.
    And the Trafficking in Persons Office, the TIP Office, 
cannot do the important work that we do without the regional 
support. Staff in the regional bureaus and in our overseas 
missions bring critical country-specific expertise to the 
cause. They ensure the TIP Report, our anti-trafficking 
diplomacy, and our foreign assistance programs are informed by 
the current realities in each country. our embassies engage 
regularly with foreign government officials to encourage anti-
trafficking efforts. They identify partners in the country to 
implement anti-trafficking programs, and they gather and verify 
information to include in the TIP Report. They provide insights 
into political, legal, and social landscapes in which this 
crime occurs. I am grateful they are here to share with you 
some of our regional successes we have, as well as ongoing 
challenges we face in our diplomacy.
    I understand that the committee would like to focus today 
on the preparation of the 2016 TIP Report. So let me take a 
minute to walk you through that process.
    Each year, the Department goes through an extensive and 
rigorous process to produce the report. Department staff work 
year around to gather information that provides the basis for 
the report, including information from our embassies, foreign 
government officials, NGOs, international organizations, and a 
full array of open sources.
    The reporting period for the 2016 TIP Report ran from April 
1st, 2015 to March 31st of this year.
    The law also provides for a mid-year check-in requiring the 
Department to submit to Congress an interim assessment of 
progress made by countries on the special watch list. These are 
countries on the tier 2 watch list and countries that moved up 
a tier since the previous TIP Report.
    The interim assessments were delivered to the committee 
earlier this year as a snapshot of the progress being made and 
improvements that are still needed by special watch list 
countries and are based on the same array of sources that 
inform our annual report.
    The special watch list countries are an important focal 
point in the Department for prioritizing our diplomatic 
engagement and targeting our foreign assistance. The Secretary 
himself made it a priority this year to engage personally with 
countries that need to improve their efforts such as those 
highlighted by the special watch list. He pressed them to take 
the necessary actions to meet the minimum standards in the 
TVPA.
    At the close of the reporting period, my staff began the 
narrative drafting process by rigorously applying the standards 
in the TVPA to each government's efforts the previous year.
    In a few cases, the analysis is not immediately conclusive 
as to which tier ranking a country's efforts warrant. To 
address these cases, I have personally hosted meetings with 
senior Department officials and working level experts to ensure 
the broad expertise of the Department is brought to bear in 
assessing the totality of government efforts and to answer 
unresolved questions and fill in factual gaps. We are in the 
middle of that process right now. While I cannot share the 
details of our internal deliberations, I will say that without 
exception I have found these discussions to be extremely 
informative, fact-based, and genuinely focused on how best to 
advance our shared goal of encouraging government progress to 
combat trafficking.
    You came back. Excellent.
    Senator Isakson. I told you I would be back.
    The Chairman. I do not know if you saw Perdue too.
    Ambassador Coppedge. Can I say my Georgia boys, my Georgia 
men, are checking in on me?
    The Chairman. That sounded a little condescending. 
[Laughter.]
    Ambassador Coppedge. So I cannot share the details of the 
internal deliberations, but the discussions we had HAVE all 
been fact-based. And the facts on governments' efforts can 
point in different directions, and Department bureaus and 
offices do not always weigh the government efforts identically, 
leading to a very small percentage of cases in which there are 
differences of opinion on how to assess tier rankings.
    The Secretary will be presented all consensus 
recommendations, as well as the differing perspectives on a few 
countries for which consensus is not reached. And he will make 
all final tier ranking designations.
    While this is my first time through the Trafficking in 
Persons Report process, I am aware of the concerns of the 
committee raised with the process last year. I want to assure 
each of you that I am doing everything in my power to protect 
and ensure the integrity of the process and maintain the 
credibility of the report. I am working hand in hand with all 
of my colleagues here to foster an environment in which a range 
of opinions can be expressed because really a healthy debate 
and close scrutiny are key to the process that makes the TIP 
Report the gold standard Senator Cardin alluded to.
    The final tier ranking decisions made by the Secretary are 
informed by the collective expertise of the experts in my 
office, our embassies, and our regional bureaus, as well as 
senior Department officials.
    Ultimately the purpose of the report and our shared goal is 
to effect change, to have governments do more to combat 
trafficking in persons. We continuously review how we can use 
the report even more effectively as a lever to motivate 
tangible progress around the world. We are improving in total 
communication, institutionalizing a process by which the 
Secretary personally takes stock of priority countries, and 
ensure high level engagement in a timely way to urge 
governments to take needed action to fulfill the TIP Report 
recommendations.
    Based in part on the feedback from your staff, we are 
taking a look at the individual country recommendations in the 
report, which inform the action plans that we prepare yearly 
for each country. We are considering ways we can strengthen the 
recommendations in the report and ways we can use them more 
effectively to push for progress in individual priority 
countries throughout the year.
    I think it is worth noting that with all the focus on the 
report and the tier rankings, that the TIP Report is 
fundamentally an instrument of diplomacy, a means to effect 
global change. Our ultimate goal, the State Department's and 
this committee's, is to help countries improve their efforts to 
fight modern slavery. Over the past 15 years, the report has 
successfully raised the profile of this issue and consistently 
drawn attention to the realities on the ground. The attention 
the report generates demonstrates both the impact and the 
importance of the fight against modern slavery and the U.S. 
Government's leadership in addressing it. Congress has provided 
strong leadership in the fight from adopting the TVPA to your 
efforts today on this committee to bring new attention and 
resources to this goal.
    In closing, I would like to say that I look forward to a 
constructive discussion and continued collaboration year around 
on this important issue. Charlotte and I have already discussed 
when I am going to check in in the summer. So thank you so 
much.
    The Chairman. Thank you. If there are no other opening 
comments, thank you all for being here. We appreciate your 
public service.
    Just as a process issue, the 2016 interim assessment report 
is typically online, but this one is marked sensitive but 
unclassified. I am just wondering why that change was made.
    Ambassador Coppedge. I was not aware how it was typically 
marked in the past, but I can certainly get back to you on why 
it was marked SBU this year.
    The Chairman. No one else has any idea?
    Are you the one that makes that determination?
    Ambassador Coppedge. No.
    The Chairman. Who does?
    Ambassador Coppedge. I do not know.
    The Chairman. I assume you will probably make it 
unclassified. Okay. I think it is good for people to be able to 
see it.
    We have I guess seven countries that have been on the tier 
2 watch list for 4 consecutive years, which means that they 
cannot do that anymore. Just to look at a couple, since we have 
the regional folks here, Burma and Haiti. Do we expect them to 
fall back to tier 2 watch or tier 3? What do we think is going 
to happen there?
    Ambassador Coppedge. Well, as you noted, they cannot stay 
tier 2 watch list. So they will have to go down to 3. And we 
are still having those discussions right now and collecting 
information. We are looking at everything that comes in from 
both those countries to help make that determination.
    The Chairman. Have you seen anything that is dramatic 
relative to increasing their rating?
    Ambassador Coppedge. In Burma, they have made significant 
progress toward removing child soldiers from their military 
there. I think there were a handful of child soldiers recovered 
during the reporting period. I believe less than five. So they 
have made progress in that area in Burma.
    In Haiti, they have made progress by moving towards 
increased prosecutions and actually had two convictions, 
although because those were outside the reporting period--the 
convictions--they will not be counted for this year's report. 
But the prosecutions were ongoing before the reporting period 
ended.
    The Chairman. So we could likely have numbers of 
downgrades, though, without something significant having 
occurred in each of those countries. Is that correct?
    Ambassador Coppedge. We look at all the minimum standards 
and then the fourth minimum standard has the 12 indicia. So we 
weigh all of that to see whether their efforts are significant 
or not.
    The Chairman. India. You know, we had a hearing this week, 
and we appreciated the fact that someone was here to do that. 
They have more slaves than any country in the world. It is 
pitiful what is happening there. 12 million to 14 million 
slaves. Trafficking in persons, obviously, is culturally 
acceptable. How could they possibly be ranked tier 2? We have 
their prime minister coming in in a couple weeks, and we 
certainly plan to talk with him about it. But how could they be 
ranked tier 2 being such violators of human rights?
    Ambassador Coppedge. I would expect nothing less from many 
Senators to raise that issue with him--the trafficking issue.
    I think when we look at countries, we have to look too at 
the size of their population. They have such a large 
population, that they have a large percentage of people who are 
affected by trafficking.
    We also need to look at the conditions that make people 
vulnerable in India, and that is the number of people who 
work----
    The Chairman. They do not have half the population of the 
world, but they have half the slaves in the world roughly. So 
the population is large but certainly not on a pro rata basis, 
you can expect that----
    Ambassador Coppedge. No. But it contributes to it. And so 
do some of the economic factors there, the drought. The 
earthquake in Nepal actually contributed to trafficking in 
India. So we look at those things that make individuals 
vulnerable.
    I was fortunate enough to get to go to India in April, and 
I learned about some programs they are doing to address 
trafficking. A lot of Indians are trafficked to Gulf countries, 
and they have started a program. I think they call it e-Migrate 
where they register companies who are looking for workers, and 
they are starting to monitor, as we have recommended in the TIP 
Report, the recruitment agencies that look for workers. So 
there are steps being made there.
    I also appreciated, after my trip there, that they are very 
decentralized. And so some states are doing better against 
trafficking than others.
    They are also trying to find ways to use new avenues to 
look for trafficking victims. They told me about efforts they 
were making with the police on the railroad system, since much 
travel in India is done on the railways, and to look for 
trafficking victims there.
    And then we also met not just with government officials but 
with civil society members and nongovernmental organizations 
who all think that great improvements have been made in the 
fight against trafficking under the Modi administration. So we 
collect opinions from a variety of sources before we decide on 
the final tier ranking.
    The Chairman. We have a lot of participation, and I am 
going to defer to others so that they can get their questions 
in. Senator Cardin?
    Senator Cardin. Let me just follow up on India for one 
moment because the credibility of the TIP Report is also in the 
observations and recommendations that are made in the TIP 
Report and then following it from year to year to year. India 
is now going to be a tier 2 country for 5 consecutive years, 
and it is my understanding that we have consistently been 
critical of their ability to prosecute those who are 
responsible for trafficking. In the 2015 report, we stated 
official complicity in human trafficking occurs at various 
levels of government. The government did not report 
investigations, prosecutions, or convictions of government 
officials complicit in human trafficking offenses. Some corrupt 
law enforcement officers protected suspected traffickers and 
brothel owners from enforcement of the law. They took bribes 
from sex trafficking establishments, and the list goes on.
    My point is we have seen very little evidence that they 
have changed their underlying attitude towards prosecution. We 
have noted this in the TIP Report, and yet they still maintain 
their tier 2 position now 5 consecutive years. Do they not have 
to make some progress and pay some attention to these 
international acknowledged standards? And where in India have 
we seen that?
    Ambassador Coppedge. Yes. So we do make those 
recommendations in fact for other countries as well, including 
the U.S. We do a narrative for our own country where we always 
encourage more prosecutions, particularly in the labor 
trafficking area, which India also has a problem with.
    Senator Cardin. But has India done anything?
    Ambassador Coppedge. They have done some things, yes. And 
in fact, when I was over there, I met with one of the judges in 
the high court in New Delhi, and he talked to me about how 
slowly all cases move through their judicial system, not just 
trafficking cases, to give me a better perspective on that.
    But they are doing better about focusing in on children's 
issue. They just had a huge campaign where they looked missing 
children, some of whom were vulnerable to trafficking or they 
believe were being trafficked.
    I also met with some individuals who were victims of bonded 
labor, and those individuals now--anyone who is recovered from 
bonded labor gets a payment from the government to help them 
get back on their feet and move on from that condition. So on 
the victim protection efforts, they are picking up their 
efforts to address preventing victims from being retrafficked.
    Senator Cardin. The law allows the President to waive the 
time restrictions and keep a country on a special watch list 
for up to 2 more years if the country meets the following 
criteria. And then it talks about a written plan that would 
satisfy a tier 2 rank and that the country is sufficiently 
resourcing or implementing the plan to be able to get off of 
tier 3.
    Who assures that in fact these three conditions have been 
met? Is there transparency here? Because it is my just 
observation that this waiver has been exercised and these three 
conditions have not been met.
    Ambassador Coppedge. Well, we get the national action plans 
or the plans for future efforts from the countries. We review 
that in JTIP. We also send them over to the legal office to 
review it in the State Department to make sure that those plans 
are complying.
    Senator Cardin. Will there be transparency that the 
President issues a waiver and keeps a country on tier 3--tier 2 
watch rather than tier 3 for an additional year or 2 beyond the 
time period spelled out in the statute, that there will be 
transparency for us to be able to evaluate that in fact the 
country has sufficient resources to implement the plan, for 
example?
    Ambassador Coppedge. Well, it is my understanding that we 
put in the narrative when the country is receiving a waiver to 
stay on the tier 2 watch list.
    Senator Cardin. So there will be transparency.
    Ambassador Coppedge. I believe that is in the report, yes.
    Senator Cardin. And of course, if there is a disagreement 
here, that is an internal debate that we will not get to see.
    Ambassador Coppedge. Yes. We do not talk about our internal 
deliberations because we do not want to chill the ability to 
sit down across the table and hash it out.
    Senator Cardin. Well, somehow in Cuba, we were able to look 
at some of the documents you made available to us. And there 
appeared to be a pretty clear indication that Cuba should 
remain on the tier 3 list, but yet it ended up on tier 2 watch, 
which seems to indicate that political considerations overcame 
the objective against. And I say that as a person who supports 
President Obama's Cuba policy, and the fact that they would be 
on a tier 3 list would not have affected my support of 
President Obama's policies in Cuba. But I want an accurate 
assessment on Cuba.
    So you are showing here relatively minor change in this 
interim report and the government does not recognize forced 
labor as a problem and criminalized forced labor and no 
reporting efforts to prevent it. Have we really seen the type 
of progress in Cuba that justifies their elevation from the 
tier 3?
    Ambassador Coppedge. I believe that tier 2 watch list 
ranking last year was based on the totality of factors. So in 
forced labor, they are still lagging, and I personally raised 
that with them when I went to Cuba in January. On sex 
trafficking efforts, they have started to increase their 
prosecutions.
    Senator Cardin. So one case that they actually prosecuted?
    Ambassador Coppedge. I think it was 13.
    Mr. Creamer. It was 13 in the 2015 report. There is one in 
the interim report, so since the report of the last year.
    Senator Cardin. So there is one this year.
    Ambassador Coppedge. In the interim. So it was 13 in the 
2015 report. The final number you do not have. You have the 
snapshot of halfway through the year.
    So they did increase their efforts from the 2015 report in 
prosecuting sex trafficking victims and actually working with 
U.S. law enforcement to stop sex tourism, a few individuals 
from going into the country. They cooperated with us there. So 
you recognize efforts that they are making and you recognize 
where they still need to make improvements, which is what the 
watch list category captured in the recommendations.
    The Chairman. I just want to jump in. That was a case 
where--thank you for letting us read the correspondence, but I 
would love to hear from the appropriate principal over here. 
That was the case where it did appear politics played a major 
role in the determination last year. Do you all want to respond 
to some of Senator Cardin's questions and my question now 
relative to that?
    Mr. Creamer. In terms of us--I was not here, but in terms 
of----
    The Chairman. Were you here last year?
    Mr. Wharton. No, sir, I was not.
    Mr. Creamer. But I have gone through the material.
    In terms of the--the determination was based on the 13 
convictions, including one where we had cooperation with U.S. 
law enforcement under the prosecution criteria.
    Under protection, it was based on the belief that certain 
institutions in the Cuban Federation are women but also several 
society groups provide psychosocial services, counseling, job 
placement, job training, health care for victims of sex 
trafficking, also based on the assessment the Cuban police have 
three special centers where victims of sex trafficking can 
testify with a psychologist and video testimony and not have to 
appear in person.
    And then in terms of the prevention, there's an office in 
the Ministry of Tourism which combats sexual tourism and then 
also state media puts out regularly information, publication, 
education about sex trafficking and trying to discourage the 
practice.
    Based on that, it went up to the Secretary who made the 
ruling that they would be tier 2 watch list.
    Certainly, as Ambassador Coppedge said, it does not mean 
that Cuba complies with the standards in terms of combating 
trafficking. It just meant that they were making a significant 
effort and they shared more information with us than they had 
in the past, which helped produce that.
    Senator Cardin. Just so I understand, were they foreign 
nationals that were prosecuted or Cuban nationals that were 
prosecuted.
    Mr. Creamer. The one who is in the interim report is a 
Cuban national.
    Senator Cardin. How about the others?
    Mr. Creamer. The others. I would have to go back and check.
    Senator Cardin. Would you give us that information?
    Mr. Creamer. Yes.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you for your time and testimony today.
    I was interested to hear more about your conversations in 
India. We had testimony from Secretary Biswal. Just yesterday 
this was. And on the U.S. Commission for International 
Religious Freedom, apparently the people that we have tried to 
send over to investigate and carry out that report were denied 
their visas and they have been denied their visas apparently 
multiple years in a row. So why are you allowed to go in when 
we talk about this issue, and why are they not allowed to go 
in?
    Ambassador Coppedge. Well, I told Senator Menendez when I 
was having my confirmation hearing that I was a squeaky wheel, 
and I attribute part of my ability to get in there to 
continuing to ask to be able to travel. So I think that that 
certainly----
    Senator Gardner. It cannot be that simple.
    Ambassador Coppedge. Actually, no, it is not. The State 
Department as a whole is pushing to get our representatives in 
various areas in there. I think that they recognize that 
trafficking in persons matters to the State Department, to our 
President, to Congress, and so I was fortunate enough to be 
able to travel over there and have some good meetings with the 
government.
    Senator Gardner. I do not know. It just seems to me that 
you are probably seeing a lot of the same victims of 
trafficking that some of these religious institutions and 
charities are helping. For instance, I talked about Colorado 
yesterday at the hearing. Compassion International--145,000 
children they are caring for, many of whom are probably victims 
of some kind of trafficking abuse. But yet our representatives 
are denied access.
    I am just curious. Are you able to see some of the work 
that the NGOs are doing and identify the work they are doing? 
Maybe you can help us identify what is going on in India when 
it comes to our ability to get help to the people on the 
religious freedom side.
    Ambassador Coppedge. I met with many NGOs while I was 
there. Some were faith-based groups. I do not have any insight 
to whether the government is going to allow other individuals 
from the State Department in. I am grateful that they allowed 
these NGOs to do the work that they are doing there. It is so 
important in India.
    And I care very much about the efforts for the children. 
And the government, as I mentioned, is making efforts to 
recover runaway and missing children and provide them with 
services. I even visited a shelter that the government sponsors 
where children are cared for.
    Senator Gardner. In this case, in Compassion 
International's case, they are actually on the verge of leaving 
India because they have been harassed by the government in 
India. So perhaps you could use your contacts since you have 
been able to go to India and make some good contacts. I would 
encourage you to chat with Secretary Biswal who has made phone 
calls on our behalf. Her bureau has. And so I appreciate that 
very much.
    Ambassador Coppedge. I would be happy to do that.
    Senator Gardner. But you might be able to help. There are 
9,000 other NGOs that could face some kind of similar 
circumstance if they are in the same position as this.
    Ms. Thornton, thank you for being here. It is great to see 
you again.
    Some of us are going to have the opportunity to visit Burma 
in the coming week. I would love to get your take and what your 
thoughts are and what is your message.
    Ms. Thornton. Well, Secretary Kerry, as you know, was just 
in Burma and he had a very excellent meeting with Aung San Suu 
Kyi.
    We have been following, of course, Burmese efforts in the 
TIP area very closely. As Ambassador Coppedge said, they have 
made some serious efforts in recent years on the child soldier 
issue. We had I think three child soldiers that were found in 
the last reporting period, and so far this reporting period in 
2016, we have not found any. So that is a huge change from the 
hundreds that we had found previously.
    Some of the military elements of the government over there, 
the military itself and then some of their agencies, have been 
among those that have been particularly cooperative with us on 
this issue, interestingly, which is very, I think, significant 
in light of the transition to the new government that we are 
seeing in Burma and how important it is that the military parts 
of the government continue to cooperate with the transition to 
the new government in Burma.
    So we have seen some significant efforts being made. We 
expect actually that trafficking in persons will be an area of 
focus for the new government under Aung San Suu Kyi's 
leadership and that we will see more progress in Burma in the 
coming year. So we are hopeful that we will see even more 
progress there.
    I am certain raising it when you are out there is 
appropriate, and she will be very sympathetic and her cabinet 
ministers.
    But I think it is interesting and important to note that 
the military has also been cooperative with us on this issue.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman, and thank you 
all for being here.
    Look, I had hoped the 2016 report--I know we are not there 
yet but--was going to be better, but I see some of the same 
problems that we began to see in the 2015 report. And the Trade 
Enforcement Act of 2015 includes a provision that I authored 
that requires the State Department to submit to Congress 
evidence to support upgrades to tier 3. That came in late 
yesterday. We have begun to look over those documents, but so 
far, for example, in the case of Malaysia, it seems that none 
of the evidence provided is new. These were all things that 
were mentioned in the 2015 report.
    So did you submit any new evidence that justifies the 
upgrade on Malaysia beyond that which were already submitted in 
the 2015 report?
    Ms. Thornton. We are still in the process of finishing up 
the report for 2016, but we have seen significant efforts on 
the part of Malaysia this year, including the passage of the 
amendments for protection of victims. Just recently when the 
Deputy Prime Minister from Malaysia was visiting Washington in 
March, he signed the implementing regulations for the new 
amendments.
    We have had a lot of consultations with NGOs on the part of 
the cabinet in Malaysia over the year, working out all these 
various new regulations that were called for previously in our 
interim assessment. And even our Ambassador at Malaysia has 
participated in a cabinet meeting discussing TIP. So it just 
goes to show the effectiveness of the report and the awareness 
that has been raised by the report.
    Senator Menendez. The highlighting of Malaysia last year 
might have been effective as well.
    Ms. Thornton. Maybe so.
    Senator Menendez. So I hope we all remember the horrific 
stories about the mass graves and trafficking victims found 
just prior to the 2015 TIP Report, stories that brought this 
issue to the world's attention. And I remind my colleagues it 
was discovered at least 28 suspected trafficking camps, two 
mass graves, over 150 bodies. When the 2015 report was 
published, State's position was that a discovery of the mass 
graves fell outside of the 2015 reporting period. At the same 
time, the report did cover a few positive developments that 
occurred after the reporting period.
    So I do not understand how we include things that are 
favorable to a country but exclude things that are not 
favorable to a country because we say, well, this fell outside 
of the reporting period, but when other things that were 
favorable fell outside of the reporting period, they were 
included. So if timing was the reason, why were the mass graves 
not raised at all in the interim report?
    Ambassador Coppedge. My understanding with respect to what 
was included and not included last year was that they had 
started efforts to establish the pilot program for the workers, 
and so those efforts to start the program were recognized. The 
workers that went into it did not go into it, I do not believe, 
until after the reporting period. But at least the program was 
being stood up. So that is why that was included. Certainly the 
issue of the mass graves will be addressed in this year's 
report.
    Senator Menendez. Why would you not even have it in the 
interim report?
    Ambassador Coppedge. So the interim report, the 6-month 
report, is just a snapshot of what is going on in the country.
    Senator Menendez. This snapshot already happened. This 
snapshot of the mass graves already happened. We should clearly 
have that in the interim report.
    Ambassador Coppedge. But the interim reports are relatively 
brief. As you know, there are a couple of sentences of what is 
positive----
    Senator Menendez. But if anything is briefed, something as 
significant as this that already happened and is clearly within 
the reporting period now, since it was excluded before as 
outside of the reporting period, it is clearly in this 
reporting period. And if that does not make the interim report, 
then what in God's name is going to make it?
    Ambassador Coppedge. Well, it will certainly make the 
report, the full narrative report in this year's----
    Senator Menendez. Let me ask you two other questions.
    Has there been any effort on behalf of the Malaysian 
Government to bring the perpetrators of mass graves to justice?
    Ambassador Coppedge. I understand that there have been no 
charges filed, but they are investigating and trying to sort 
out responsibility, criminal and culpable responsibility.
    Senator Menendez. Let me ask a final question. Let me ask 
you about Cuba.
    Mr. Creamer, you say you were not there at the time when 
this took place. Is that correct?
    Mr. Creamer. Right.
    Senator Menendez. So you are giving us a chronological 
answer to Senator Cardin's question.
    Mr. Creamer. I am giving you the facts that were laid out 
in the report that the Secretary decided on that basis.
    Senator Menendez. Voyeur magazine listed Cuba as a sexual 
hotspot of the world. So there is a lot of sex trafficking 
going on in Cuba, believe me. And if Voyeur magazine can figure 
it out, we should be able to figure it out.
    This was supposedly one of the great victories of the Cuban 
revolution was stopping sexual trafficking, which has exploded. 
My understanding is that the Cuban Government continues to be 
an impediment to information gathering not only because of its 
resistance to cooperating with the United States but because it 
does not keep records on human trafficking and efforts to stop 
it, information that could be useful, and that information is 
out of date.
    What data sources are you using to collect information on 
Cuba? Is it strictly from the Cuban Government? Is that 
information correct?
    Mr. Creamer. In terms of the Cuban Government, obviously 
the Cuban Government has provided us some information, but also 
through our embassy in Havana, we talk to a wide range of 
people. We also talk to NGO human rights groups both on and off 
the island and get the sense of the trafficking issues. There 
is both a sex trafficking issue and then obviously there is the 
forced labor issue, which Cuba does not recognize. This is why 
we have been talking a lot with the people in the medical 
program and others. So we try and get at the whole range of 
sources. It is somewhat difficult in Cuba at times, given the 
very poor human rights record that exists there, but we are 
trying the best we can to evaluate the whole range of sources.
    Senator Menendez. My perception is the bar is so low for a 
country having to meet absolute minimal elements in order to be 
raised that I think it does a disservice to the ultimate goal. 
We want to see countries make progress, but progress has to be 
meaningful and some of this is so minimalist that you have 
described that I just do not understand how they get an 
upgrade.
    Thank you, Mr. Chairman.
    The Chairman. Senator Risch.
    Senator Risch. I am going to pass, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Just underscoring the importance of this and 
adding an additional dimension to it, and then I have got a 
couple questions about process.
    So the report is a gold standard, and we want to make sure 
it is scrupulous. That in and of itself is important because 
the report is a gold standard and the topic is important.
    But here is an issue of growing concern on the Malaysian 
situation. The TPP is a huge initiative of this President. It 
is extremely important to this administration, and we really 
believe that it should be done. And largely voted on, whether 
the TPP should be done or not, is going to depend upon people's 
confidence in will it be enforced. There is a lot of questions 
about the enforcement of trade deals. Sometimes the deal may be 
fine on paper. If it is not going to be enforced, you have got 
a lot of skepticism around just that question.
    This issue about Malaysia was the first question right out 
of the gate of whether it is going to be enforced. There is a 
provision in the TPA that said the nations that are in this 
bottom category cannot be part of trade deals absent very 
extraordinary circumstances. And then all of a sudden, Malaysia 
shows up. It is, well, okay, it is not tier 3. It is tier 2. 
And that seems like a separate issue. That is the TIP Report.
    But it feeds into a fundamental question that both the 
House and the Senate are going to have to grapple with in short 
order about do we do this TPP or not. And if it is not going to 
be enforced, no matter how good the rhetoric is--you know, so 
this thing with Malaysia really fed into a deep concern up here 
that affects another one of the President's major priorities. 
So it is a very important issue in its own sake, and it is a 
very important issue in terms of how it affects something else. 
People feel like when it gets to enforcement, if we wave a wand 
and excuse this, then what else are we excusing in enforcement 
down the road.
    So this shook the confidence of those like me who are TPP 
proponents and what I am trying to tell people in terms of 
justifying my likely support for it if suddenly I feel like on 
the enforcement we are going to turn a blind eye.
    So that is the stakes you guys have on your shoulders as 
you are doing this 2016 report. When is the likely date that it 
will come out?
    Ambassador Coppedge. It is due out in January.
    Senator Kaine. So it is going to come out before we have a 
vote on this. In all likelihood we would not get to a TPP vote 
between the election and the end of the year. So if games are 
being played with this that affect whether people can be 
included in it or not, your work is going to have a very 
significant effect. It could have a significant effect on how 
Congress takes up this other major initiative that the 
President wants. So I just wanted to say that.
    I am kind of curious on process issues. You talk about you 
get information from embassies. So is a report like this or the 
human rights report--how much of this is information delivered 
by the embassy versus the work product of your unit of State? 
How iterative--you know, do you send a survey down to the 
embassy in every country and they have got to give you a lot of 
data and then you use that data to do the building blocks for 
the report? Do the ambassadors of the countries make 
recommendations on something like this, what the tiers should 
be? Does it vary by country? I mean, I am curious about this.
    Ms. Thornton. Maybe I could just talk a little bit too 
about being in the embassy because I have been working in 
embassies the whole 15 years we have had the TVPA and in pretty 
tough countries, China, Russia, Turkmenistan, had a lot of TIP 
visitors out. We get visitors out from JTIP when we are in the 
embassy. We go out in the field. I have been down to the Burma 
border in China looking at what is going on down there, touring 
around with NGOs. So we have a lot of sort of grassroots feel 
for what is going on that embassies report in. We have visitors 
come out from JTIP. We have embassy officers in Washington. 
When they come back and cycle through, they go out and meet 
with JTIP. So they are also feeding into the report. But it is 
kind of a constant process. Ambassadors are involved. You have 
field officers involved. And so I think we are talking, as 
someone said down there in the case of Cuba, to NGOs, to the 
government, to people outside the country and inside the 
country.
    Senator Kaine. Does the embassy make a tier recommendation?
    Ambassador Coppedge. The embassy submits the facts. And 
this year in particular is what I can speak to. We sent out 
draft narratives earlier on in the process working with the 
counterparts at the embassies who can collect those facts, as 
PDAS Thornton just alluded to, so that it really was a joint 
project this year at the working level to get the narrative 
written. And then we make the evaluation and make a 
recommendation back to the regional bureaus. And we sit down 
and talk about those recommendations.
    Ambassador Todd. I was the U.S. Ambassador in Cambodia up 
until August, and I was there for 3 and a half years. And 
during that time, as Susan said, we collected data from the 
government. We collected data from civil society, the various 
NGOs, and we had people canvas the field. But at the end of the 
day, I also reached back to the person who was in Susan's job.
    In my case, I did make a recommendation, which was I 
thought they should be downgraded, and they were. And I can 
tell you in the case of Cambodia, it was a very powerful stick 
that helped the government get religion, so to speak. They then 
took us seriously. They made changes. And frankly, I do not 
know where they are today, but it was a good news story while I 
was there.
    The Chairman. Very good.
    Senator Shaheen.
    Senator Shaheen. I apologize. I missed all of your 
comments.
    But did you address whether you are putting the reports 
online? I did note that the interim report was not put online.
    Ambassador Coppedge. Senator Corker inquired about that, 
and we are going to get back to whether we can release that, 
the interim report, online. It is marked ``SBU'' right now, and 
we do not know if that is a change in policy. But we are going 
to get back to you on that.
    The Chairman. Do you want to respond to that? You seem to 
be the person in the know.
    Ms. Johnstone. To my knowledge, there has not been a policy 
decision. I think it has just not been posted yet. So it was 
probably an oversight, but we will confirm that.
    Senator Shaheen. What kind of sensitive information would 
be there that would mean that it should not be made public?
    Ms. Johnstone. The interim reports, they are classified or 
they are marked ``sensitive but unclassified'' during the 
drafting stage so that we can have the frank discussion while 
we are drafting, and I suspect in this case, but I would like 
to confirm that. I suspect those markings were not removed 
before they were sent to Congress. They were simply removed for 
the human rights report or the Trafficking in Persons Report 
annually before it is published.
    Ambassador Coppedge. I do not know if you were also 
inquiring about the 2016 report being online. We have found out 
that it is really important to people to have a copy of the 
book. In some places it is harder to get access to the 
Internet, and so we are going to continue to produce the book 
itself.
    Senator Shaheen. I understand that. I just wondered if 
there was some particular issue with the interim report that 
made it more of a concern in terms of releasing information.
    Ms. Johnstone. Not to my knowledge, but again, we will 
confirm it.
    Senator Shaheen. Can you also talk about the extent to 
which you work across agencies within the government to address 
trafficking?
    Ambassador Coppedge. So the TIP Office at the State 
Department coordinates the Senior Policy Operating Group, which 
is working level people from various Federal agencies. And then 
once a year, Secretary Kerry chairs the President's Interagency 
Task Force where we sit down with cabinet level members from 
all the various agencies. Then we coordinate the government's 
anti-trafficking efforts with the goal to reducing redundancy 
or overlap but also to building on each other's efforts. 
Homeland Security does a wonderful job of training and they 
have done some joint training operations in Mexico. So we want 
to just keep all of government on the same page and aware of 
what each other is doing so we can continue to enhance each 
other's efforts.
    Senator Shaheen. And how do you define trafficking?
    Ambassador Coppedge. Trafficking is the forced coercion of 
someone to engage in sex or labor against their will for a 
commercial benefit essentially.
    Senator Shaheen. So, for example, there were reports that 
came out in the last year about some inappropriate sexual 
activity on the part of members of our military in Afghanistan. 
Is that something that you all look at and consider to be part 
of what you are looking at when you look at trafficking?
    Ambassador Coppedge. This is part of the debate we actually 
get in with the foreign governments as well because they will 
report in data, and we try to figure out whether it is sex 
trafficking or rape or sexual abuse. There are different 
categories. The Trafficking in Persons Report just looks at 
trafficking, not that the other things are not equally 
horrible, but we try to look at trafficking in the Trafficking 
in Persons Report.
    I know that DOD is part of the President's Interagency Task 
Force and that they are pushing out anti-trafficking training 
to the military and to our soldiers stationed abroad. I cannot 
speak directly to what they do with respect to sexual offenses.
    Senator Shaheen. We had a hearing on India yesterday. Was 
that only yesterday? And I do not know if anybody has raised 
this, but there were a lot of questions about India and India's 
failure to address trafficking and how we deal with India on 
this issue. So how does the report treat India?
    Ambassador Coppedge. Like every other country, we try to 
gather information from governments, NGOs, other civil society 
elements, media. There are a lot of NGOs in India, so we do get 
a lot of information. India itself is starting to publish their 
own statistics on crime and efforts they are taking. So we are 
now getting better statistics from India in this area, but we 
still have a lot of concerns that are outlined in the report 
that we raise with them through our embassy.
    Senator Menendez. Mr. Chairman, I just have a process 
question.
    The Chairman. Sure.
    Senator Menendez. So especially the regional bureau 
Secretaries, so you have a view from the embassy, then a view 
from the regional bureau, and a view from JTIP. When they are 
all in harmony, that is great. When they are not, have you 
experienced times--and you do not have to get into the 
specifics. But when they are not, how does that process 
ultimately work out?
    Ambassador Coppedge. Well, we sit around the table and 
discuss the issues and discuss where our differing perspectives 
arise from. In some cases, we need more facts. We try to go 
back and get those facts from the country, if possible. 
Ultimately, if we cannot make a decision, we are going to 
recommend--both of our perspectives are going to get 
recommended up and the Secretary will make the final decision.
    Senator Menendez. So JTIP and the regional bureau may at 
some times as it relates to a given country have two different 
sets of recommendations.
    Ambassador Coppedge. We may, yes. We may interpret the 
facts differently and be recommending different rankings.
    Senator Menendez. And then it is up to the Secretary to 
resolve it.
    Ambassador Coppedge. Yes, Senator.
    Senator Cardin. Can I just make a friendly suggestion? I 
thought, Secretary Dodd, your point about Cambodia was very 
telling. And using the rankings, the tiers, particularly on a 
downgrade, can be the best thing you can do to help a country. 
And I just would hope that there is sensitivity to that from 
the leadership in the State Department, that this is a tool 
that can be used to advance a very important mission for a 
country and that there should not be such a defensive mechanism 
to protect a tier.
    I mean, India is a good example. India has been in the same 
tier for a long time. India is a country that is a democracy. 
It is a country we obviously are increasing our ties and our 
relationship with. We may not be doing India any favor by 
keeping them at the same tier for 5 years when, at least the 
information I am looking at, there are serious issues. And it 
does not appear like we are getting the attention we would like 
to get on this issue.
    I am not suggesting they should be downgraded, but I am 
suggesting there should be some sensitivity at the State 
Department to use the tier ratings to advance this issue and 
not so defensive of either an embassy or a region that you do 
not want to rock the boat and change a tier listing. Cambodia 
is a good example. It also helps the government officials that 
understand that they need more attention in their government, 
and the tier rating can help them get the resources and 
attention they need within their political system.
    Ambassador Coppedge. And I do not think there is a 
defensive reaction to what you are alluding to. What we 
certainly want to hear is how the country is likely to respond 
if that were to occur so that we can plan proactively to go in 
there with a message about what you can do to improve, what was 
working there. We also look at what resources JTIP can provide 
in our international program planning so that if the country is 
being downgraded, what can we do to go in there and support 
their efforts to improve what they are doing to fight 
trafficking. Can we get out there with trips? Can the Secretary 
message it to countries? So we do not necessarily look at it 
defensively, but we look at it from a practical standpoint and 
kind of as a domino, what would a downgrade do and what would 
we need to do as a government to continue to encourage them 
other than just giving them the tier 3 ranking. What else can 
we do to encourage them to continue their efforts?
    The Chairman. Well, let us talk about a specific case. 
Ghana was downgraded from tier 2 to tier 2 watch list. They 
entered into a child protection compact. Has anything happened?
    Ambassador Coppedge. We are still working with Ghana on the 
child protection compact. I know that we have got staff out 
there frequently looking at issues there. There are NGOs that 
we are gathering information from there. So we are looking at 
it. I know they have entered into some ministerial agreements 
there as well. We are, obviously, closely monitoring their 
efforts pursuant to the compact. I do not have specifics on 
what Ghana----
    Mr. Wharton. They implemented the first award under the 
child protection compact just last year. One award went to IOM 
and one went to a group called Free the Slaves. That was in 
October of 2015.
    I am also aware of the NGO that you just mentioned, the 
IJM, and I think there was a disagreement between the 
Government of Ghana and that NGO. I think the NGO continues to 
work, and we hope they can resolve it.
    Ambassador Coppedge. And I will just say those are efforts, 
certainly when we entered the compact, that shows the 
government's political will to engage in fighting this problem. 
But efforts taken by the NGOs or by the U.S. Government are not 
used in looking at the government efforts of Ghana to enter 
into fighting trafficking.
    Mr. Wharton. Senator, to your point about process, we do 
seek to use the watch list and the criteria for the watch list 
proactively with the governments. Linda Thomas Greenfield, 
Assistant Secretary for Africa, met with President Mahama in 
Ghana just last month and spoke about TIP. I met with President 
Guelleh in Djibouti earlier this month and spoke about TIP. And 
frankly, this process, the fact that we cannot go back the next 
time we meet with these leaders and say, look, this is not just 
the Obama administration. This is bipartisan support from 
Capitol Hill. This is something that is important to our entire 
nation. And that gives us, I think, additional credibility and 
leverage to make clear that this is something that we are not 
giving up on.
    The Chairman. If anybody has a question, please jump in.
    I know that there are sensitivities about criticizing 
Mexico for lots of reasons, but they have issues. And I know we 
have made some recommendations to them. And I am just wondering 
if you can give us a status of what is occurring there.
    Ambassador Coppedge. Yes. Mexico is the first place I 
traveled to. As a prosecutor, I had tried a lot of cases that 
originated from Tenancingo, the state of Tlaxcala, Mexico. And 
so I had some experience with that and it was good first 
country for me to visit because of also the importance of our 
relationship with Mexico. And we talked. I met with Senator 
Daio who is pushing to reform their law to have it more 
accurately follow the international law from the Palermo 
Protocol and the definitions for trafficking. So they do have 
proposed laws in their legislature. It has not yet moved 
through.
    They are working on a change to their criminal justice 
system as whole. They are going to a confrontational system 
where a lot of their cases used to be done accusatorially on 
paper. So that change to a system, which is happening in June, 
will open up their court processes, so not just in human 
trafficking cases but in other cases as well. There is a 
problem with corruption in Mexico. So it should open up those 
cases as well. So they are looking at reforming their 
judiciary, which will have benefits we believe in fighting 
trafficking.
    They have also, as a government, engaged more with the U.S. 
in joint operations. They had a case that was taken down 
simultaneously in New York and in Mexico, and they arrested 
traffickers who were on both sides of the border in the same 
trafficking ring. That was one of their first big international 
cooperation efforts with us. And those are continuing. There 
are more investigations in the pipeline.
    They have opened up their first public-private shelter in 
the state, and they are using that as a model to open up more 
shelters. I got to go see a government-sponsored in Mexico 
City, and they are putting a lot into victim protection 
efforts.
    So there is a lot going on, although the problem is large.
    We also talked about some of the risk factors for Mexico, 
and their southern border is very porous. It has a real problem 
bringing in migrants from Central America, and those people are 
at risk for trafficking. So we were talking about ways to train 
law enforcement on the border and support them, understanding 
how to identify trafficking victims that are coming in from 
Central America.
    And so they recognize where their problems are and they are 
taking steps to address them. And I was really heartened by 
seeing some of the efforts they are taking down there.
    The Chairman. Other questions?
    Senator Menendez. Let me ask you. Part of what I think we 
are all trying to understand is how the amalgam of what you do 
comes to the conclusions. That is a little difficult to 
determine. I do not want to interfere with your freedom to be 
expressed among yourselves to make yourselves and make your 
arguments. At the same time, it is a little difficult to judge 
when we do not quite get the calibration.
    So you are all regional bureau secretaries. You have a 
region you are responsible for. There are economic issues. 
There are security issues. There are terrorism issues. There is 
a whole host of other things beyond the question of the TIP 
Report.
    So when you have a country within your region that is 
problematic in the context of the TIP Report, but is important 
in some other context, security, economic or whatever, where is 
your balance? How does your balancing take place? Where do you 
put the finger on the scale? Give us some sense of the 
calibration. You do not to have to be country-specific, but as 
a general rule, it would be helpful for us to understand 
because some of us think that maybe what needs to happen is 
that it needs to be more prescriptive. That might not be a good 
thing, but it is difficult to understand without understanding 
how you calibrate to make those decisions. Can you give us some 
insight into that? Because I think anyone who tells me that 
that is not part of the calibration, you walk away with total 
disbelief here.
    Ambassador Coppedge. Well, on the Trafficking Victims 
Protection Act sets out some things that we cannot consider.
    Senator Menendez. Can I ask you--with all due respect, can 
I ask the regional secretaries to answer.
    Ambassador Coppedge. Yes.
    Mr. Wharton. Thank you, Senator.
    I was going to answer the same way, that the TVPA does set 
out very specific criteria, and in these conversations we have 
across the table--we had one just last week--we do the best we 
can to argue the facts. I instructed by desk officers, the 
people who came to present the individual country cases, to 
look at the facts not the politics of the situation, but the 
facts. And we sought to reach a consensus on--I think we were 
dealing with eight different countries. Sometimes people look 
at the facts in different ways, and I think the sort of factor 
that you are talking about--a security relationship, for 
example--will enter into that, but ultimately we have to use 
the TVPA to determine where the ranking is going to fall. We do 
our dead level best to follow those guidelines.
    Senator Menendez. Is that a common view?
    Ambassador Todd. I would say yes.
    I would add one sentence, and that is that we obviously 
want to promote documents that have all the facts, but then we 
have to show or we would like to show if there was significant 
effort or not on the part of the government. And that is the 
key to the facts. And that is a very subjective term of art. 
And that then becomes debatable.
    Senator Menendez. So you are telling me--and I will just 
stop here--that if we have major security ally, that somehow we 
would not be able to do things with because they violated the 
standards of the TVPA, that you would uphold the standards of 
the TVPA, notwithstanding the consequences of our engagement 
with that country whether in a trade agreement or in the 
context of a security ally or a terrorism cooperation. That is 
what you would hold?
    Ambassador Coppedge. I think that might be one of the 
situations where the Secretary would ultimately get to decide 
if there are competing diplomatic interests outside of the TIP 
Report.
    Senator Menendez. You are a good lawyer.
    Ambassador Coppedge. Well, thank you.
    The Chairman. Any other questions?
    We thank you for being here. We thank you for coming into 
this kind of setting and talking with us. And I think you can 
tell there is a lot of interest and concern. The fact is we 
want to make sure there is integrity in the process, and 
hopefully this helps those of you who want to make sure the 
same is true of the process you go through. So thank you. 
Thanks for your service.
    There may be some follow-on questions. If you would answer 
them fairly promptly, we would appreciate it.
    We are adjourned. Thank you.
    [Whereupon, at 5:40 p.m., the hearing was adjourned.]





                                  [all]



</pre></body></html>
